<html>
<title> - AGENCY BUDGETS AND PRIORITIES FOR FISCAL YEAR 2006</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
           AGENCY BUDGETS AND PRIORITIES FOR FISCAL YEAR 2006

=======================================================================



                                (109-3)




                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 16, 2005

                               __________


                       Printed for the use of the

             Committee on Transportation and Infrastructure








                 U.S. GOVERNMENT PRINTING OFFICE

20-871                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001























             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             ROBERT MENENDEZ, New Jersey
VERNON J. EHLERS, Michigan           CORRINE BROWN, Florida
SPENCER BACHUS, Alabama              BOB FILNER, California
STEVEN C. LaTOURETTE, Ohio           EDDIE BERNICE JOHNSON, Texas
SUE W. KELLY, New York               GENE TAYLOR, Mississippi
RICHARD H. BAKER, Louisiana          JUANITA MILLENDER-McDONALD, 
ROBERT W. NEY, Ohio                  California
FRANK A. LoBIONDO, New Jersey        ELIJAH E. CUMMINGS, Maryland
JERRY MORAN, Kansas                  EARL BLUMENAUER, Oregon
GARY G. MILLER, California           ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          BILL PASCRELL, Jr., New Jersey
ROB SIMMONS, Connecticut             LEONARD L. BOSWELL, Iowa
HENRY E. BROWN, Jr., South Carolina  TIM HOLDEN, Pennsylvania
TIMOTHY V. JOHNSON, Illinois         BRIAN BAIRD, Washington
TODD RUSSELL PLATTS, Pennsylvania    SHELLEY BERKLEY, Nevada
SAM GRAVES, Missouri                 JIM MATHESON, Utah
MARK R. KENNEDY, Minnesota           MICHAEL M. HONDA, California
BILL SHUSTER, Pennsylvania           RICK LARSEN, Washington
JOHN BOOZMAN, Arkansas               MICHAEL E. CAPUANO, Massachusetts
JIM GERLACH, Pennsylvania            ANTHONY D. WEINER, New York
MARIO DIAZ-BALART, Florida           JULIA CARSON, Indiana
JON C. PORTER, Nevada                TIMOTHY H. BISHOP, New York
TOM OSBORNE, Nebraska                MICHAEL H. MICHAUD, Maine
KENNY MARCHANT, Texas                LINCOLN DAVIS, Tennessee
MICHAEL E. SODREL, Indiana           BEN CHANDLER, Kentucky
CHARLES W. DENT, Pennsylvania        BRIAN HIGGINS, New York
TED POE, Texas                       RUSS CARNAHAN, Missouri
DAVID G. REICHERT, Washington        ALLYSON Y. SCHWARTZ, Pennsylvania
CONNIE MACK, Florida                 JOHN T. SALAZAR, Colorado
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
VACANCY

                                  (ii)



















            Subcommittee on Water Resources and Environment

                JOHN J. DUNCAN, Jr., Tennessee, Chairman

SHERWOOD L. BOEHLERT, New York       EDDIE BERNICE JOHNSON, Texas
WAYNE T. GILCHREST, Maryland         ROBERT MENENDEZ, New Jersey
VERNON J. EHLERS, Michigan           JOHN T. SALAZAR, Colorado
STEVEN C. LaTOURETTE, Ohio           JERRY F. COSTELLO, Illinois
SUE W. KELLY, New York               GENE TAYLOR, Mississippi
RICHARD H. BAKER, Louisiana          BRIAN BAIRD, Washington
ROBERT W. NEY, Ohio                  TIMOTHY H. BISHOP, New York
GARY G. MILLER, California           BRIAN HIGGINS, New York
HENRY E. BROWN, Jr., South Carolina  ALLYSON Y. SCHWARTZ, Pennsylvania
BILL SHUSTER, Pennsylvania           EARL BLUMENAUER, Oregon
JOHN BOOZMAN, Arkansas               ELLEN O. TAUSCHER, California
JIM GERLACH, Pennsylvania            BILL PASCRELL, Jr., New Jersey
TOM OSBORNE, Nebraska                RUSS CARNAHAN, Missouri
TED POE, Texas                       NICK J. RAHALL, II, West Virginia
CONNIE MACK, Florida                 ELEANOR HOLMES NORTON, District of 
LUIS G. FORTUNO, Puerto Rico         Columbia
CHARLES W. BOUSTANY, Jr.,            JAMES L. OBERSTAR, Minnesota
Louisiana, Vice-Chair                  (Ex Officio)
VACANCY
DON YOUNG, Alaska
  (Ex Officio)

                                 (iii)

















                                CONTENTS

                               TESTIMONY

                                                                   Page
 Dunne, Hon. Thomas P., Deputy Assistant Administrator for Solid 
  Waste and Emergency Response, U.S. Environmental Protection 
  Agency.........................................................     7
 Grumbles, Hon. Benjamin H., Assistant Administrator for Water, 
  U.S. Environmental Protection Agency...........................     7
 Spinrad, Dr. Richard W., Assistant Administrator, National Ocean 
  Service, National Oceanic and Atmospheric Administration.......     7

          PREPARED STATEMENT SUBMITTED BY MEMBERS OF CONGRESS

Bishop, Hon. Tim, of New York....................................    34
Miller, Gary G., of California...................................    67
Oberstar, Hon. James L., of Minnesota............................    68

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Dunne, Hon. Thomas P............................................    35
 Grumbles, Hon. Benjamin H.......................................    41
 Spinrad, Dr. Richard W..........................................    74

                       SUBMISSIONS FOR THE RECORD

 Dunne, Hon. Thomas P., Deputy Assistant Administrator for Solid 
  Waste and Emergency Response, U.S. Environmental Protection 
  Agency, Delaware River Oil Spill Fact Sheet....................    29
 Grumbles, Hon. Benjamin H., Assistant Administrator for Water, 
  U.S. Environmental Protection Agency, responses to questions 
  from Rep. Eddie Bernice Johnson................................    53
 Spinrad, Dr. Richard W., Assistant Administrator, National Ocean 
  Service, National Oceanic and Atmospheric Administration, 
  responses to questions from Rep. Richard H. Baker..............    83


















           AGENCY BUDGETS AND PRIORITIES FOR FISCAL YEAR 2006

                              ----------                              


                      Wednesday, February 16, 2005

        House of Representatives, Committee on 
            Transportation and Infrastructure Subcommittee 
            on Water Resources and Environment, Washington, 
            D.C.
    The committee met, pursuant to call, at 2:00 p.m., in room 
2167, Rayburn House Office Building, Hon. John Duncan [chairman 
of the subcommittee] presiding.
    Mr. Duncan. I want to welcome everyone to this first 
meeting of the Water Resources and Environment Subcommittee in 
the 109th Congress. With this new Congress, I am pleased that I 
have a new Ranking Member, one of my best friends in the 
Congress, Congresswoman Eddie Bernice Johnson.
    I have had the privilege of developing some really close 
friendships with the Ranking Members that I have had, both when 
I chaired the Aviation Subcommittee and this Subcommittee. I 
know that I am certainly looking forward to working with my 
friend, Congresswoman Johnson.
    We also have several new members on both sides of the 
aisle. On our side, we have Congressman Tom Osbourne from 
Nebraska, Congressman Ted Poe from Texas, Congressman Connie 
Mack from Florida, and Resident Commissioner Lewis Fortuno, who 
represents the Commonwealth of Puerto Rico.
    Then, of course, we have Congressman Charles Boustany, who 
represents the Seventh District of Louisiana, and who is going 
to serve as Vice Chairman of the Subcommittee. I would now like 
to introduce Congresswoman Johnson to mention her new members.
    Ms. Johnson. Thank you very much, Mr. Chairman. I am 
pleased to join you as a part of the leadership team for this 
Subcommittee, and I could not have had a better leader. In the 
many years that I have had the pleasure of working with you on 
the Committee on Transportation and Infrastructure, you have 
displayed fairness and a cooperative spirit exceeded by no one. 
Over the next two years, I look forward to working closely with 
you to address the Nation's water resources issues.
    We on the Democratic side of the aisle are also pleased to 
have several new House members on the Subcommittee. 
Representative John Salazar represents the Third District of 
Colorado. He brings years of first-hand water resource 
experience from his years in agriculture.
    Representative Brian Higgins represents New York's 27th 
District, a Congressional District on the Great Lakes, that has 
been represented on this Committee since at least 1975. 
Representative Allison Schwartz represents Pennsylvania's 13th 
District, and brings to the Subcommittee substantial experience 
from the Pennsylvania State Senate.
    Representative Russ Carnahan, I see he has not come in, 
yet. I will go ahead and introduce him, even though he has not 
arrived. He represents the Third District in Missouri, where he 
succeeds former Democratic leader, Richard Gephart and his 
grandfather, who also served in the house.
    So I am very pleased to welcome all the new members to the 
Subcommittee. Hopefully, we will see the successful enactment 
of a Water Resources Development Act, and a renewed and 
invigorated Federal commitment to clean water at Infrastructure 
this year. That might be wishing too much, but we will try.
    I also look forward to working with you on other issues 
before the Subcommittee. Today, the Subcommittee has the 
opportunity to discuss the President's budget proposal for 
fiscal year 2006 with representatives of the Environmental 
Protection Agency and the National Oceanic and Atmospheric 
Administration.
    This is the first of two hearings, with representatives of 
the Corps of Engineers and other agencies within this 
Subcommittee's jurisdiction testifying on March 10th.
    Oversight of executive agency budget's and priorities is 
critical to Congress performing its Constitution 
responsibilities to ensure the effectiveness of the programs we 
create and to meet the expectations of our constituents.
    Unfortunately, the witnesses before the Subcommittee today 
will have a difficult time convincing me that this budget 
adequately meets the Nation's needs and expectations for the 
investment, critical infrastructure, and protection of human 
environmental health.
    But the for EPA, that was before a committee that I was on 
earlier today, the budget request represents a reduction of 
over a half billion dollars, or seven percent; the lion's share 
which comes from cuts to vital water and waste water 
infrastructure programs.
    The Congressional Budget Office, the Water Infrastructure 
Network, and even EPA itself, have each documented that State 
and local governments need as much as $10 billion annually, 
over and above currently expenditures, to meet waste water 
infrastructure needs over the next 20 years
    Yet, this budget proposes to eliminate $370 million in 
Federal grants to States for Revolving Loan Funds, as well as 
to eliminate $310 million in Federal spending for high priority 
water, waste water, and storm water projects.
    The Superfund Program fairs no better. Since the beginning 
of this Administration, EPA has completed barely one-half of 
the annual number of Superfund cleanups, when compared to the 
previous Administration. In just five years, the pace of 
cleanup has slowed from an average of 73 sites per year to just 
over 40.
    The budget also proposes that virtually all Federal 
spending for the Superfund Program will be from the general 
taxpayers, and continues the alarming trend of collecting fewer 
and fewer cost recoveries from responsible parties. Gone are 
the days when the Superfund was a true Polluter Payers' 
Program.
    I know the Subcommittee will hear the explanation that 
close to 70 percent of the funding is from private parties and, 
therefore, ``Polluter Pays'' is still in effect. This ignores 
that the Superfund trust fund is also supposed to be ``Polluter 
Pays.'' However, this budget calls for $1.2 billion in general 
revenues and nothing from the oil and gas, chemical, or the 
general business community.
    Since the Superfund taxes expired in 1995, the oil and gas 
chemical and business communities have enjoyed a $4 million a 
day tax break, costing the trust fund over $13 billion. Now 
that the trust fund is empty, individual taxpayers have been 
asked to contribute an additional $3.6 billion to clean up the 
toxic waste sites of the Superfund Program.
    In January of 2004, EPA's Inspector General's Office 
released a report highlighting how limited funding for the 
Superfund Program has significantly reduced the program's 
ability to clean up the Nation's most toxic sites. This was 
followed by a statement by a witness today, Mr. Dunne, who 
suggested that it might be appropriate to stop adding sites to 
the Superfund Program because of funding limitations.
    It is disingenuous to blame a lack of resources as the 
reason for slowing the pace of cleanup at the same time the 
Administration has slowly starved the Superfund trust fund 
through failing to adequately collect cost recoveries and 
failing to call for a reinstatement of the taxes to fund the 
trust fund.
    EPA also argues that a major cause for the decline in 
cleanups comes from the fact that many of the larger, more 
complex Superfund sites are reaching the construction phase, 
and as a result, they are placing a greater burden on the total 
Superfund budget.
    Most of these sites have been in the Superfund pipeline for 
decades. It should come as no surprise that additional cleanup 
dollars are required to address the sites. Yet, for at least 
the past five years, EPA's Superfund budget has been declining; 
failing even to keep pace with inflation.
    Mr. Chairman, I am also concerned at the Administration's 
failure to adequately fund other important programs within the 
jurisdiction of this Subcommittee. The Administration's budget 
inadequately funds EPA's Nonpoint Source Program, despite 
recognition that nonpoint sources of pollution are the single 
largest source of impairment to the Nation's rivers, lakes, and 
near coastal waters.
    The budget proposes to eliminate the National Oceanic and 
Atmospheric Administration's Coastal Nonpoint Pollution Control 
Program, a program that has demonstrated a great potential in 
improving coastal water quality and reducing the likelihood of 
unsafe beach conditions and closures.
    The Administration's budget underfunds the brownfields 
sites assessment and cleanup programs, while asserting that the 
budget fully funds brownfields cleanup. The Brownfields Program 
is critical to areas such as mine in Dallas County, Texas. 
Brownfield redevelopment creates jobs and opportunities, while 
making use of existing roads, water, and sewage, as well as 
mass transit.
    The President made this his first environmental priority 
upon his election. It is really time for us to ask him to fully 
fund it.
    Mr. Chairman, we cannot to continue to under-invest in our 
Nation's infrastructure or its environment. We have an 
obligation to previous generations to take care of the 
infrastructure and resources that they presented to us, and 
keep the economy moving forward. Yet, we also have an 
obligation for future generations to provide a cleaner, safer 
and more secure world for them to live. I look forward to 
today's testimony. Thank you for your attention.
    Mr. Duncan. Well, thank you very much, Ms. Johnson. I, too, 
look forward to a very productive year. I earlier introduced 
some of the new members, but we have been joined by Mr. Fortuno 
from the Commonwealth of Puerto Rico. We are certainly honored 
to have you with us. Then also we have some of our great 
veteran members: Mr. Gilchrest, Mrs. Kelly, Mr. Miller, who 
have been outstanding members, and Mr. Bishop joined us on the 
other side.
    As for the legislative agenda of this Subcommittee, we will 
first focus on completing the Water Resources Development Act 
of 2005. We passed this bill through the House in the last 
Congress with overwhelming support, but the Senate did not 
finish its job.
    Fortunately, the Senate has already started to work on 
their Water Resources Development Act, and I think we will be 
able to move this major legislation very quickly, or maybe not 
very quickly, but fairly quickly and get it to the President 
some time this year.
    I want to remind all members that the Committee has 
established a deadline of March 2nd for submission of WRDA 
requests. That can be a wide variety of requests. If there is 
any confusion about that, come see us.
    Our second priority will be to address our Nation's 
wastewater infrastructure needs. I expect we will get into that 
somewhat at the hearing today.
    The subcommittee also will focus on Good Samaritan 
legislation to remove barriers to abandoned mine cleanups and 
legislation on controlling invasive species and on improving 
implementation of Clean Water Act permit programs.
    Today's subcommittee meeting is a hearing to examine the 
budgets and priorities of the Environmental Protection Agency 
and the National Oceanic and Atmospheric Administration.
    Next month, on March 10th, we will hear from the Corps of 
Engineers which is a major part of the work here, and the work 
that the Corps of Engineers does, the Civil Works Program. We 
will also have the TVA, the Natural Resources Conversation 
Service, and the St. Lawrence Seaway Development Corporation.
    I, of course, support the President's efforts to get 
Federal spending under control. But I think there will be 
problems with some of his choices about where to spend the 
money.
    It is inevitable that the Administration's priorities and 
Congressional priorities will not always coincide and there 
will be some give and take. But for the EPA and NOAA programs 
that fall within the jurisdiction of this Subcommittee, I like 
to think that we have the same goals, protecting our 
environment in a cost effective way.
    With that goal in mind, I continue to be very surprised 
that any Administration would propose cuts to the Clean Water 
Act SRF Program. This seems to happen every year, no matter who 
is in the White House.
    But the SRF Program is and has been one of the most cost 
effective programs in the Government. For every dollar the 
Federal Government invests, more than $2 is made available for 
environmental improvements. In fact, the Federal Government 
investment of $22 billion in the SRF has led to the creation of 
Revolving Loan Funds totaling $52 billion. That is not pie in 
the sky money. Those are actual realistic figures.
    In fiscal year 2004 alone, the SRF Program provided over 
$4.6 billion in loans for sewer upgrades and for other water 
quality improvements around the country. This sounds like a lot 
of money, but as Ms. Johnson said, the needs are even greater.
    We have made great improvements. We passed a resolution 
talking about what we have done since the first Clean Water Act 
was passed 30 years ago. But no one wants to go back to the 
days when rivers caught on fire. There has to be a shared 
commitment to make the needed improvements to our wastewater 
infrastructure. That means local, State, and Federal investment 
in this area must continue to increase.
    For the Superfund Program, the overall budget request of 
$1.28 billion is $29 million more than the enacted level, but 
that increase is not directed for the ground cleanup 
activities. So we need to look into that.
    There are several other things that we are going to get 
into, but I want to get on into this hearing. I will tell you 
that ordinarily on this Subcommittee, we give very short 
opening statements. Ms. Johnson and I both have gone a little 
bit longer here today, because this is the first meeting.
    Also, for the new members, as a courtesy for those who show 
up on time and as a courtesy to our witnesses, I always start 
this Subcommittee exactly on the minute, if not sooner, unless 
there is a vote going on. That is partly because I have been to 
so many committee and subcommittee meetings that start 15 or 20 
minutes late. Whether it makes any different to you or not, you 
can count on this Subcommittee starting right on time.
    Does anybody else have any opening statement they wish to 
make at this time before we introduce the witness? Yes, go 
ahead, Mr. Salazar.
    Mr. Salazar. Thank you, Mr. Chairman, I would first of all 
like to recognize you and Ranking Member Johnson for your 
leadership on water issues. I am pleased to be a part of this 
important subcommittee, and I look forward to working with you 
in the 109th Congress.
    As we look towards the budget priorities of fiscal year 
2006, I ask that each of us here today keep in mind the needs 
of rural communities throughout America. I am concerned about 
the proposed budget impacts of the EPA and its ability to do an 
effective job.
    Local water quality is dramatically impacted by existing 
water infrastructure. By cutting funding for programs like the 
Clean Water State Revolving Fund, we make it hard for smaller 
communities, for rural communities, to invest in infrastructure 
improvements.
    I understand that this budget requests only $730 million in 
capitalization grants for the State Clean Water Programs, or 
$360 million less than what was allocated in 2005.
    As a man who works and lives on the land, I can attest to 
you, water is the life blood of many of these communities. 
Whether it is for drinking or irrigation needs, we must do what 
we can to protect our national resources.
    Mr. Chairman, I know that we will be hearing from these 
agencies shortly and I will have an opportunity to ask 
questions. I just want to re-emphasize my concern about 
proposed cuts to the programs that are so important to the 
States and to the local level. I thank the witnesses who are 
here today, and I look forward to hearing from you and starting 
a dialogue on these important issues; thank you.
    Mr. Duncan. Thank you very much, Mr. Salazar. Mr. Miller?
    Mr. Miller. Yes, Mr. Chairman, considering the time, I will 
just place my opening statement into the record. That way we 
can get closer to testimony.
    Mr. Duncan. All right, does anybody else have anything? Mr. 
Bishop?
    Mr. Bishop. Thank you, Mr. Chairman, I will make a very 
brief opening statement. I want to thank you and the Ranking 
Member for holding this hearing.
    I need to say that I am deeply concerned by the budget 
proposals that we are now considering. It seems to be that 
these proposals sacrifice the long-term health of our 
environment and the protection of our coastal communities for 
what really is nothing more than short term and insignificant 
reductions in the deficit.
    I am distressed by the Administration's continuing retreat 
from the protection of our environmental resources under the 
pretense of expanding economic growth. As someone who 
represents over 300 miles of coastline and numerous communities 
that depend on tourism and a pristine local environment for its 
economic health, I fail to see the correlation between 
decimating our shoreline and growing the economy.
    Many of the proposed cuts will affect members of my 
constituency on Long Island. This Administration's budget has 
specifically targeted Long Island Sound restoration funding by 
drastically slashing this program.
    The budget also proposes funding cuts for the National 
Estuaries Program throughout the country. My district is home 
to two estuaries that rely on this funding to maintain their 
pristine environmental qualities.
    The President's budget message talked about significant 
spending reductions or outright elimination of programs that 
are falling short. So I would ask or I would hope that in the 
testimony that we are about to hear, that you will detail for 
us the specific measures that you have used to determine that 
certain of these programs, particularly the Long Island Sound 
Study Program, are falling short of their objectives.
    Thank you, Mr. Chairman, I await the testimony.
    Mr. Duncan. Thank you very much. Does anybody else want to 
say anything?
    [No response.]
    Mr. Duncan. All right, thank you very much, we are then 
ready to go to the witnesses. We are pleased to have a very 
distinguished panel here this afternoon.
    First, we have the Honorable Benjamin H. Grumbles, a former 
member of the staff of this Subcommittee, and a very 
knowledgeable man in this area, who is the Assistant 
Administrator for Water at the Environmental Protection Agency.
    We have the Honorable Thomas Dunne, who is the Deputy 
Assistant Administrator for Solid Waste and Emergency Response 
from the Environmental Protection Agency.
    We have Dr. Richard W. Spinrad, who is the Assistant 
Administrator of the National Ocean Service of the National 
Oceanic and Atmospheric Administration.
    Gentlemen, we are pleased to have all three of you with us. 
Your full statements will be placed in the record. We ask that 
witnesses limit their opening testimony to five minutes. We 
give you six minutes, but then we cut you off, in courtesy to 
the other witnesses and to the members who wish to ask 
questions.
    We always proceed in the order in which the witnesses are 
listed on the call of the hearing. That means, Mr. Grumbles, 
you will go first.

  STATEMENTS OF THE HONORABLE BENJAMIN H. GRUMBLES, ASSISTANT 
ADMINISTRATOR FOR WATER, U.S. ENVIRONMENTAL PROTECTION AGENCY; 
 THE HONORABLE THOMAS P. DUNNE, DEPUTY ASSISTANT ADMINISTRATOR 
  FOR SOLID WASTE AND EMERGENCY RESPONSE, U.S. ENVIRONMENTAL 
     PROTECTION AGENCY; DR. RICHARD W. SPINRAD, ASSISTANT 
  ADMINISTRATOR, NATIONAL OCEAN SERVICE, NATIONAL OCEANIC AND 
                   ATMOSPHERIC ADMINISTRATION

    Mr. Grumbles. Thank you, Mr. Chairman, it is always an 
honor to appear before the Subcommittee in representing the EPA 
Office of Water, in particular. So I am pleased to be here 
before you, Congresswoman Johnson, and the other members of the 
Subcommittee, to talk about the National Water Program and the 
President's budget request for fiscal year 2006.
    I would note that this budget is $2.8 billion. It 
represents approximately 38 percent of the Agency's budget 
request. We believe that it will advance our efforts, and those 
of our State and local and Tribal partners, to ensure the 
Nation's waters are clean, safe, and secure.
    What I would like to do is focus on a couple of basic 
points in the limited amount of time I have. One of them is 
that there is no question that a budget requires tough 
decisions.
    So we feel that we are making responsible decisions to put 
priority on key areas and on core programs. The continued 
success of the Clean Water Act relies on continued investments 
in the infrastructure and watershed-based approaches and 
regional collaborations.
    The budget request includes $231 million in grants under 
the Section 106 Program, which is a core program to provide 
assistance to the States to administer Clean Water Act 
authorities.
    There are three areas I would like to mention, Mr. 
Chairman, that I think reflect our priorities in the National 
Water Program. One of them is monitoring.
    The President's budget request includes $24 million in new 
money over a two year period. That is specifically $7 million 
additional funding for fiscal year 2006, specifically for 
improved water quality monitoring to help States, localities, 
the Agency, and the American public understand the status and 
trends of the Nation's water quality and to be able to make 
smart decisions with limited resources, and where to get 
priorities and what areas to focus on.
    The other area I would like to focus on is infrastructure. 
This committee certainly knows the value of water 
infrastructure and so does EPA. We are requesting $730 million 
for the Clean Water State Revolving Fund Program. I certainly 
recognize that is an area where some, particularly in this 
room, feel there should be more.
    I would say to the Committee that the Administration's 
approach is that, as it was originally envisioned, when this 
Committee wrote the 1987 amendments, the State Revolving Fund 
would over time actually revolve and not have to rely on 
Federal seed money after a certain period of time.
    We are making a $6.8 billion commitment that, if $730 
million is appropriated over the years, eventually the fund 
will revolve on its own at $3.4 billion. We think it is a 
continued step forward. We recognize that there is far more 
that needs to be brought to the table in terms of State and 
local resources, full cost pricing, and asset management.
    One of our highest priorities, Mr. Chairman, is to focus 
not only on the supply side of the equation, where the Federal 
dollars or the local dollars are going to come from, but also 
on the demand side: water use efficiency, water conservation, 
and asset management. We are committed to that.
    I would note that one of the Agency's priorities is to 
continue to work with our local partners on ways to better 
manage their facilities and to take advantage of conservation 
pricing; or, to explore working with the Department of Energy 
and the Energy Star Program on ways, through voluntary 
measures, to reduce costs through water use efficiency, water 
conservation.
    I would also like to focus on the all-important point of 
watershed based approaches. That is one of our four pillars to 
sustainable infrastructure. But it is probably the most 
important approach to the successful implementation of the 
Clean Water Act.
    Watershed restoration means bringing together in a 
collaboration, whether regional or local, all the key players, 
to focus on the tools that are available under the Clean Water 
Act, and to pursue innovations and cost-effective measures.
    Through a focus on watersheds, we are very pleased with the 
Targeted Watersheds Grants Program. We are requesting $15 
million for that. We think that is a powerful engine for 
innovation, for trading, for accelerating restoration of 
impaired waters and watersheds.
    The other key point is regional collaborations. One of the 
highest priorities of the Agency and the Administration, when 
it comes to water, is the Great Lakes. This involves continuing 
the regional collaboration of national significance, the Great 
Lakes Legacy Act. We are seeking the full amount authorized for 
clean-up, $50 million under the Act, and that is extremely 
important to us.
    The last point is wetlands. Wetlands is a key part of any 
responsible management of a watershed. The President made a 
fundamental shift from simply a no-net loss goal to an overall 
gain goal last Earth Day, and we are committed to helping in 
that regard.
    We are requesting $20 million, a 33 percent increase in the 
Wetlands Grants Program, to help us accelerate progress, 
respect property rights, respect the regulated community; and 
through regulatory and non-regulatory measures, advance the 
ball on wetlands and watershed protection.
    Thank you, Mr. Chairman, I appreciate your patience and 
look forward to answering any questions.
    Mr. Duncan. Thank you, very much; the Great Lakes Legacy 
Acts was one of the bills that we passed through this 
Subcommittee and full committee.
    I welcome back the veteran members and introduced a couple 
of new ones that had come in on our side. Did we introduce Mr. 
Schwartz? Okay, good, I wanted to make sure of that. Also, Mr. 
Baird has come in and joined us, as well.
    Next, we will hear from Administrator Dunne.
    Mr. Dunne. Thank you, Mr. Chairman and Members of the 
Subcommittee; I am Tom Dunne, EPA's Deputy Assistant 
Administrator for the Office of Solid Waste and Emergency 
Response.
    I am pleased to appear before this Subcommittee to discuss 
the President's Fiscal Year 2006 budget request for the 
Superfund, Brownfields, and other programs that fall within my 
office.
    The President's budget request provides the necessary funds 
for EPA to carry out its mission efficiently and effectively, 
to protect human health and safeguard the environment. The 
budget request maintains funding for the Superfund Cleanup 
Program, and includes an increase for Homeland Security efforts 
in our Office of Emergency Management. The budget request also 
includes a significant increase for the Brownfields Program.
    The Superfund Program continues to face unprecedented 
problems. EPA is faced with a large number of costly, complex 
sites that are taking up a large portion of our construction 
budget.
    In the past fiscal year, nine sites used more than 52 
percent of the construction contract budget. I want to assure 
you that we are managing this challenge through aggressive 
contract management. We have been able to supplement EPA's site 
construction funding by de-obligating more than $500 million 
over the past four years.
    As of January 2005, cleanup construction has been completed 
at 927 private and Federal Superfund sites, and 94 percent of 
Superfund sites have either cleanup construction underway or 
have completed cleanup construction.
    The Superfund budget request will also fund EPA's Removal 
and Emergency Response Program. To date, EPA has completed more 
than 8,200 removal actions at toxic waste sites to immediately 
reduce threats to human health and the environment.
    The President's budget also requests an increase in the 
Brownfields Program for a total of $210,000,000. This 
represents nearly a $47 million increase from Fiscal Year 2005 
appropriated levels.
    The increase in the budget request will enable EPA to 
further enhance State and Tribal response programs that restore 
and reclaim contaminated and blighted brownfield sites.
    EPA estimates that the President's budget request could 
fund up to 1,000 brownfield site assessments, 60 cleanups, and 
leverage roughly $1 billion in cleanup and redevelopment.
    The budget request also provides OSWER's Oil Spill Program 
$2.3 million. The Oil Spill Program focuses on preventing oil 
spills, reducing the risk of hazardous exposure to people in 
the environment, and responding to oil spills, where necessary.
    EPA evaluates as many as 13,000 spills each year to 
determine if assistance is required; and on average, EPA takes 
emergency actions to respond to oil spills at approximately 300 
sites per year.
    Mr. Chairman, I want to thank you for the opportunity to 
discuss some of these important EPA programs that are entrusted 
to my office. I look forward to working with you and your 
committee as we work toward our mutual goal of protecting human 
health and safeguarding the environment. Thank you, Mr. 
Chairman.
    Mr. Duncan. Thank you very much, Administrator Dunne. You 
mentioned, of course, Superfund and the Brownfields, which we 
get into on this Subcommittee.
    I will tell some of the newer members that we passed 
through this Subcommittee about three years ago in 2002 the 
Small Business Liability Relief and Brownfields Redevelopment 
Act. That is one of the things, of course, that you mentioned. 
But that is already doing a lot of good, I think, in a lot of 
places around the country.
    We have now been joined, in addition to other members I 
have mentioned, by Congressman Osborne. We did introduce you 
earlier, but we are certainly glad to have you on the 
Subcommittee.
    Next, we will go to the third witness for today, Dr. 
Spinrad.
    Dr. Spinrad. Thank you, Mr. Chairman and Members of the 
Subcommittee. I am Rick Spinrad, the Assistant Administrator of 
NOAA for Ocean Services and Coastal Zone Management. On behalf 
of NOAA Administrator, Vice Admiral Conrad Lautenbacher, thank 
you for inviting NOAA to testify today on our Fiscal Year 2006 
budget request and priorities.
    First, I will speak to NOAA's responsibilities under both 
the Superfund Act and the Oil Pollution Act of 1990. NOAA has 
the responsibility to protect and restore coastal resources 
when threatened or injured by releases of oil or hazardous 
substances.
    Specifically, NOAA's Office of Response and Restoration 
implements CERCLA and OPA mandates by providing an 
interdisciplinary scientific response to releases of oil, 
chemicals, and other contaminants; protecting and restoring 
NOAA trust resources; and extending core expertise to address 
critical local and regional coastal challenges as they arise.
    In Fiscal Year 2006, the President is requesting $17.6 
million for response and restoration activities to meet our 
responsibilities under CERCLA and OPA to protect and restore 
injured coastal and marine resources.
    Funding in 2006 will continue to support damage assessment 
and restoration efforts for sites such as the Hudson River in 
New York, Commencement Bay in Washington, and the LCP chemicals 
hazardous waste site in Georgia.
    NOAA will provide technical assistance, training, and 
support to States and communities to strengthen local and 
regional capabilities to restore or redevelop contaminated 
sites and port areas.
    The Fiscal Year 2006 request also provides funding for the 
Great Lakes Region under NOAA's fisheries habitat restoration 
line item. This funding will expand NOAA's capabilities in the 
Great Lakes Region, providing a focused effort on habitat 
protection and restoration, through an ecosystem-based 
approach.
    The second area I would like to focus on today is the 
Coastal Nonpoint Pollution Control Program. Polluted runoff 
from growing urban areas, septic systems, farms, forestry 
operations, and other land uses remains a major threat to our 
coastal areas.
    NOAA anticipates playing an important role in the 
implementation of the President's U.S. Ocean Action Plan, which 
identifies several initiatives to reduce nonpoint source 
pollution in coastal watersheds.
    For example, in Fiscal Year 2005, NOAA and EPA, in 
partnership with other Federal agencies, will initiate a series 
of community workshops to improve integration and coordination 
of the Coastal Zone Management Act and the Clean Water Act and 
other Federal programs.
    NOAA works closely with EPA to ensure that coastal States 
have the tools necessary to effectively manage nonpoint sources 
of pollution. Thirty-three of the thirty-four States and 
territories that participate in the Coastal Zone Management 
Program now have either conditionally or fully approved coastal 
nonpoint programs.
    The Administration recognizes the important role that State 
coastal management programs can play in addressing coastal 
nonpoint pollution problems. NOAA will continue to leverage our 
resources by working closely with EPA and other Federal 
partners to apply NOAA's expertise in coastal management to 
nonpoint pollution issues and programs.
    The next two areas I would like to focus on today are the 
NOAA programs and activities related to harmful algal blooms 
(HABs) and hypoxia.
    Virtually every coastal State has reported reoccurring 
major blooms, and a recent national assessment revealed that 
half of our Nation's estuaries experience hypoxic conditions at 
some point each year.
    NOAA, working closely with our partners, has made 
considerable progress in the ability to detect, monitor, 
assess, and predict HABs and hypoxia in coastal ecosystems. For 
example, NOAA implemented the first operational HAB forecasting 
system along the West Coast of Florida in 2004.
    The President's Fiscal Year 2006 budget requests $8.9 
million in funding for HAB and HABHRCA-related research. 
Through the Inter-Agency Task Force on Harmful Algal Blooms and 
Hypoxia, NOAA will provide guidance for existing research 
programs, for addressing the research needs in the Great Lakes, 
and the development of new programs in the areas of prediction, 
response, and research, as well as development, demonstration, 
and technology transfer.
    The last area I will speak to today is NOAA's request for 
aquatic nuisance species activities. The Fiscal Year 2006 
President's budget requests a total of $7.9 million to continue 
NOAA's work to prevent the spread of invasive species. The 2006 
funding request assumes continued support for the invasive 
species research and outreach projects selected through a 
national competition in fiscal year 2005.
    A vital part of the 2006 request is $2.5 million for the 
Aquatic Invasive Species Program, which focuses on early 
detection, monitoring, and control of aquatic invasive species, 
including an inter-agency crosscut initiative led by NOAA, the 
United States Geological Survey, and the Smithsonian's 
Environmental Research Center.
    NOAA is leading the development of an early warning system 
for coastal and marine invasive species through its National 
Centers for Coastal Ocean Science. Once this early warning 
system is tested in Hawaii, it will be expanded to include 
other regions of the United States.
    Mr. Chairman, thank you again for inviting NOAA to 
participate in today's hearing. At this time, I would be glad 
to answer any questions; thank you.
    Mr. Duncan. Well, thank you very much, Dr. Spinrad, and we 
thank all of the witnesses. I had divided my opening statement 
up into two different parts. So sometimes I go first on the 
questions and sometimes I go last. Today, I am going to go 
last, since I have spoken twice.
    I will say, though, for some of the members who were not 
here for that part of my statement, that one of the first big 
things we are going to concentrate on is our Water Resources 
Development Act. The committee has set a March 2nd deadline of 
any requests. So if there is any type of a water project or 
work that is needed to be done in your district, you might try 
to let us know before March 2nd.
    I will go first though and yield my time for questions at 
this time to Mr. Gilchrest.
    Mr. Gilchrest. Thank you, Mr. Chairman.
    Mr. Grumbles, I have a comment and two quick questions. My 
comment is, I think my staff has already contacted you to talk 
about the Chesapeake Bay Program. It has been in effect almost 
20 years now. The Bay is steady, but not improving.
    So what I would like to talk to EPA about is how to reform 
the program so that the dollars that are spent can be more 
oriented towards specific restoration activities, as opposed to 
ongoing bureaucracy, research projects, and things like that.
    Out of the $20 million a year that we have seen, only a 
fraction of that actually gets put into grants for restoration 
projects; whether it is planting trees, purchasing of 
easements, and things like that.
    There is $800 million annually from all of the different 
States. But it so fragmented, so diffuse, that that money does 
not have any specific goal. Of course, the watershed from New 
York to Virginia is 95 percent private property. So it enhances 
the difficulty of the restoration.
    But I would like to have an ongoing discussion with EPA 
about how to reform that to get all those dollars. Because you 
talked about investment in infrastructure. If we could make 
human infrastructure compatible with nature's infrastructure, 
nature would do a lot more than a sewage treatment plant. It is 
a matter of how much filtering you get out of a 100 acres of 
trees versus one sewage treatment plant.
    Anyway, those are the kinds of things that I would like to 
talk about; a pretty major reform of the Chesapeake Bay 
Program.
    The question is, in part of your program, you talk about 
$24 million for a probabilistic monitoring of water quality. 
What I have written seems to be somewhat different from TMDLs. 
Could you comment on what the difference is?
    Mr. Grumbles. Sure, I would, and I also would just say that 
I look forward to working with you and your colleagues on 
further efforts on Chesapeake Bay Restoration, and I recognize 
your leadership in that effort, legislative with bills and also 
oversight.
    One of the benefits of the $24 million monitoring 
investment will be better TMDLs. It will also benefit State 
officials, and local water resource managers, who will have a 
better sense of what waters are impaired, and which ones are 
not meeting their designated uses.
    But probabilistic sampling is a concept of a scientifically 
sound approach to get the best, most credible and statically 
valid assessment, without having a monitoring station at every 
single spot.
    So it is trying to come up with the best, most accurate 
picture and perspective of the water quality, recognizing that 
some of those funds cannot just go towards monitoring. They 
need to go towards projects, implementation of efforts.
    So that is one of the reasons why, for us, it is a 
priority, and the President's budget reflects that it is a 
priority. Improved monitoring, more tools for States and 
localities, can lead to better decisions and more effective 
projects down the road.
    Mr. Gilchrest. Thank you, that sounds good.
    Dr. Spinrad, as far as I can understand, there is no 
demonstration project for ballast water in NOAA's budget. The 
IMO, I think, has come up with standards for ballast water that 
are to be implemented in the International Maritime Industry in 
2009. I do not know of standards that the U.S. has reached yet, 
either with NOAA or the Coast Guard. Could you comment on that?
    Dr. Spinrad. Yes, sir, and first, I would like to thank 
you, Congressman, for the support that you have provided in the 
development of many of the related programs associated with 
harmful algal blooms which, of course, have an association with 
some ballast water activities.
    We have chosen, in NOAA, to focus our investments on those 
invasive species issues that are specific to monitoring and 
detection and forecast of the invasive species, as opposed to 
the ballast water technology activities.
    Mr. Gilchrest. So are you leaving that up to the Coast 
Guard?
    Dr. Spinrad. We work closely with the Coast Guard. 
Obviously, we coordinate with them on their STEP Program. But 
by and large, other than the example of the additional 
resources provided in Fiscal Year 2005, which we have directed 
towards particular ballast water activities, our emphasis has 
been on the monitoring and detection of those invasives.
    Mr. Gilchrest. Thank you.
    Mr. Duncan. All right, thank you very much, Mr. Gilchrest. 
Ms. Johnson?
    Ms. Johnson. Thank you, Mr. Chairman.
    Mr. Dunne, I agree with the President on the importance of 
the Brownfields Program in redeveloping under-utilized areas 
through the country. In my own city, Dallas, Texas, the city 
worked with EPA to re-develop 72 acres of abandoned rail yards, 
an old power plant, and an old meat processing plant, to make 
room for the American Airlines Center.
    Since 2001, this area has been a major success story in 
Dallas, with significant re-development of commercial and 
residential living spaces growing up around the center.
    This is the kind of success story that needs to be 
replicated throughout the country. Unfortunately, however, the 
President's budget for the Brownfields Program shortchanges 
communities on the availability of brownfields sites assessment 
and cleanup funding.
    The budget identifies $210.1 million for brownfields. 
However, only $120 million is for actual assessment and 
cleanup. While the authorized amount is $200 million, the 
remaining $90 million in the budget appear to be destined to 
support bureaucracies of EPA and the States, and not actual 
assessment and cleanup.
    If we were to re-allocate one half of the remaining $90 to 
assessment, would that not add another third of the 1,000 sites 
you expect to be assessed and another third to the 60 sites you 
expect to clean up in the coming year?
    Mr. Dunne. Congresswoman, $60 million of the request is 
going for State and Tribal programs. Almost all States are 
running Brownfields Programs, of which they also have funding 
mechanisms. It is also helping local communities in developing 
their own Brownfields Programs.
    So I think the feeling is that the money that is being 
spent, or the $60 million that is being requested for States 
and Tribes, is well worth the investment. Because, in effect, 
you are funding the organizations that can help accelerate 
Superfund or brownfields cleanup and alternative sites at the 
local level.
    Ms. Johnson. Thank you; Mr. Grumbles, the budget and your 
testimony refer to the Administration's desire to achieve a 
revolving level of $3.4 billion annually for the Clean Water 
Act State Revolving Loan Fund Program. What is the basis for 
this $3.4 billion number? What analysis went into developing 
that number, and what is the impact on that level of funding in 
addressing the identified funding gap?
    Mr. Grumbles. Well, the Clean Water State Revolving Fund is 
a critically important tool. It is just one of the tools in the 
toolbox to address what we have documented as a very large 
national gap in infrastructure needs versus spending.
    So the answer to your question is, the first basis that we 
used was the EPA Gap Analysis that we completed about two years 
ago. That laid out the most detailed information to date on the 
gap between projected needs over the next 20 years and also the 
likely expenditures.
    What we did, Congresswoman, was we looked at the levels, 
the $21 billion gap that is documented in that report. We then 
made modeling estimates and projections. If you make 
assumptions about leveraging and the annual use of the State 
Revolving Loan Funds, if we continue to contribute Federal seed 
money, which we want to do, at what point nationally could 
those State Revolving Loan Funds actually revolve, as was 
intended in the 1987 amendment.
    What that led us to conclude was that if we can net, up 
front, $6.8 billion over the years 2004 through 2011, then 
eventually the fund nationally would revolve at that level.
    Ms. Johnson. Will it make the gap disappear?
    Mr. Grumbles. No, it will not. Our projection is that if 
utilities pursue full cost pricing, if the four pillars of the 
Agency's approach are used, then we think that the gap could be 
closed. You know, it is an estimate. But we would hope that 
that amount would lead to a closing of the gap. But there is 
nothing certain or definite about that.
    Ms. Johnson. My time has expired, but I have one quick last 
question. What will the gap be? Do you know?
    Mr. Grumbles. Well, the gap depends on a lot of things. So 
what will it be after 2011? It requires a time frame.
    If that is the question, we are hopeful that if the amount 
that we have requested is provided every year and the four 
pillars of sustainable infrastructure are used, then that $21 
billion gap, if not eliminated, would be significantly reduced.
    But I guess part of the point is that local infrastructure, 
as important as the Federal role is in that endeavor, requires 
a lot of additional tools and actions by local government and 
rate payers and other sources of State funding. So it is hard 
to predict.
    But our vision of it is that if Congress does continue to 
provide the seed money over that period of time, and if the 
four pillars of sustainable infrastructure are pursued, then 
the gap will be significantly narrowed; thank you.
    Mr. Duncan. All right, thank you very much.
    Professor Ehlers?
    Mr. Ehlers. Thank you, Mr. Chairman.
    First of all, Mr. Spinrad, I have just a comment about your 
role on invasives. I appreciate the report on harmful algal 
blooms. As you know, I sponsored the legislation and I am 
pleased with your work on that. I hope we can make some real 
progress on that.
    I was disappointed in your comment about your role in 
invasives. I recognize you are restricted because the Coast 
Guard is involved, as well. Frankly, the Coast Guard has been 
involved for 15 years and really has not done much.
    So I would hope that we can find a more active role for 
NOAA in dealing with aquatic invasives. Mr. Gilchrest and I are 
sponsors of two companion bills that we will be taking up again 
this year, and hope to get them passed this session. You have 
the expertise and the knowledge at NOAA to really deal with it 
accurately, and I hope we can give you a more meaningful role 
in that.
    Mr. Grumbles, I am very pleased with what Administrator 
Levitt has done on the Great Lakes issues. He has really taken 
that to heart and worked very hard on it. He started this whole 
process to develop the Comprehensive Action Plan. We hope that 
will continue under the new Administrator, whoever that might 
be, and we hope that you will continue your involvement in 
that, as well.
    It is extremely important that we protect the Great Lakes. 
Along that line, as you know, I sponsored the Legacy Act. I 
appreciate the willingness at the EPA to provide funding, and 
particularly the budget request for this year at the authorized 
level of $50 million, and the support of both the EPA and the 
White House.
    In fact, a White House official told me that it was a no-
brainer for them to fully fund it, because the needs are 
clearly identified. The options are clearly identified. The 
process is clearly identified. It is one of the few 
environmental areas that can make that claim. So I hope that 
trend of full funding will continue, and we can deal with the 
cleanup of these contaminated areas of concern.
    One question I have for you, how is the EPA determining how 
to spend the money? It was easy to spend the first part of it, 
because the projects were right there, ready to go.
    But how are you deciding whether to put money in orphan 
sites or put it in places where you can accelerate projects 
already under way? I am also wondering about that first $10 
million, which is now out there being spent. How is that 
working? Can you give us a progress report on that?
    Mr. Grumbles. Sure, and I need to note that it was 
virtually a year ago, or almost the precise date, that you made 
the request of us to go back and talk about the 2006 budget 
request and seek full funding for the Great Lakes Legacy Act.
    I would say that we are still working on it. It is a very 
high priority --that additional funding. It is more than 
doubling what Congress appropriated for Fiscal Year 2005. So we 
hope that additional funding will come.
    In terms of the funding from 2005 coupled with the previous 
year, we certainly have at least one project that is nearly 
completion, the Black Lagoon Project in Michigan. We have about 
14 other projects.
    The Great Lakes Legacy Act is very helpful and clear in 
terms of laying out statutory criteria about priorities. So we 
are following that closely. You are right, there are some 
questions. There will undoubtedly be some competition. We will 
look beyond just the non-Federal cost as to who can provide 
that 35 percent; but also with the priority needs, we will go 
through a risk analysis.
    You mentioned the question of Superfund. I would say that 
we want to honor the principle of ``Polluter Pays.'' We also 
recognize the intent of the Great Lakes Legacy Act, that in 
some of these cases, while there may be liability associated 
with PRPs, there are also broader opportunities to have a 
collaboration among the various agencies and governmental and 
non-governmental funds going into specific projects.
    We are very enthused about the Great Lakes Legacy Act. 
There are 31 areas of concern. There are a lot of priorities 
and needs. We are hopeful that the executive order in the Great 
Lakes collaboration will also provide some useful information 
about the broader restoration of the Great Lakes. That may also 
be able to inform us in our decisions about the projects under 
the Great Lakes Legacy Act.
    Mr. Ehlers. Well, I very much appreciate the Bush 
Administration's record on the Great Lakes. I hope we get an 
EPA Administrator that will continue that tradition.
    I have a very quick question for Mr. Dunne. On the 
Superfund cleanup, the tax expired some time ago. Do you have 
enough money to continue your work on that, or should the 
Congress be looking at re-instituting that fee that started the 
program?
    Mr. Dunne. Congressman, if you go back and look at the 
actual facts of the fund, on the relationship that was in there 
on the tax, there is no relationship with what the Congress 
appropriated us in any given year, none. As a matter of fact, 
if you go back to 1996, when they had $3.9 billion in the fund, 
the Agency received the second lowest funding of all time.
    So people that are trying to make the equation between the 
amount of money in the fund or the tax, I think, are not being 
accurate about it.
    We can continue to fund those projects that have the basic 
need. Every project that we look at that has got any health 
concerns, we move immediately to reduce those. So there is not 
any project on the national priority list that has not been 
addressed in terms of health risk.
    So in terms of the communities whom we have not been able 
to reach with the funds, you can rest assured that we are 
working as diligently and as efficiently as possible to get to 
those sites. But at no time would we tolerate not having a plan 
in order to be able to take care of the immediate health risk, 
and that is being taken care of now.
    Mr. Ehlers. Thank you very much.
    Mr. Duncan. Thank you, Mr. Ehlers.
    Mr. Baird?
    Mr. Baird. Thank you, Mr. Chairman, I appreciate the 
gentleman's testimony.
    Dr. Spinrad, I must say I am not one of those who believes 
that we should pat ourselves on the back and measure our 
success by throwing money at problems. Nevertheless, a dearth 
of funds can create problems.
    I am very interested in the issue of invasive species and 
the costs they present. What is the total Administration 
proposal for funding on invasive species?
    Dr. Spinrad. As I indicated in my testimony, the NOAA 
contribution is identified as $7.9 million associated with the 
invasives, mostly oriented towards detection, monitoring, and 
assessment. We are going to have to get back to the 
Subcommittee for the total Administration piece of the 
invasives' budget.
    Mr. Baird. Thank you; to put that amount into context, do 
you have an estimate of how much zebra mussels alone cost the 
economy in the Great Lakes region and the Mississippi region?
    Dr. Spinrad. I would be remiss to quote a number off the 
top of my head. But I can indicate to you that there are 
abundant studies along those lines. I believe EPA, in fact, may 
have some specific numbers.
    Mr. Baird. My recollection is, it is billions, with a ``B'' 
a year, and we are spending $7 million. My particular concern 
is, if you get zebra mussels on the west side of the Rocky 
Mountains and into the Cascade River system and Northern 
California systems, you are going to have devastating impacts. 
I would encourage the Administration to look more seriously at 
the savings that preventive efforts may have.
    The 100th Meridian Initiative could help us prevent this 
and some other early interventions. We know from experience 
that stopping these species before they really get a toehold 
can save billions of dollars.
    So I would just encourage you to convey that to the 
Administration. It is not a glamorous issue. There are no 
political contributions that go with it. But it happens to be 
central to our environment and our economy.
    Mr. Grumbles, I have two questions about the State 
Revolving Loan Fund. Maybe you wanted to add, did you have a 
cost estimate on invasives?
    Mr. Grumbles. I have a cost estimate, at least with respect 
to zebra mussels. Treatment and control by industrial and 
municipal water users is over $300 million a year, nationwide.
    I can also tell you that at the Office of Water, one of our 
focal points or priorities is to help develop an overall 
estimate of the costs and the benefits, in terms of control of 
zebra mussels and invasive species, more broadly, because of 
the impacts to the ecology and the economy.
    Mr. Baird. That is good to hear, because sparteine grass in 
the Willopa Bay is threatening to wipe out the oyster industry. 
It is a huge environmental area for shore birds and salmon, and 
we really need to get a hold of these things early.
    I have two questions about the State Revolving Loan Fund. 
First, I note in the budget significant cuts in the 
expenditures on that.
    Now I understand that rationale that we are trying to 
create a Revolving Loan Fund. But my understanding, from some 
of the communities that I represent is, they would like to get 
some of those funds and they are unable to. My impression is 
that that is already over-subscribed.
    So on the one hand, we want to create a stable Revolving 
Loan Fund. But on the other hand, more people need those funds 
than we currently have. It seems to me that further cuts, which 
I see in this budget, will deprive those communities of those 
needed funds and of our goal of cleaning the water and 
providing healthier drinking water for our communities. Can you 
enlighten me on that a little bit?
    Mr. Grumbles. Well, every State Revolving Loan Fund looks 
to the State's intended use plan, the priority projects that 
are ready to go. I would say that the lists of projects can be 
quite long in States. There is no question, and the Agency 
recognizes that the needs are many.
    What we are focusing on and trying to encourage is 
acceleration towards sustainability through increased 
leveraging, and also recognizing the original intent, which was 
that after a period of time, and it was about eight years as it 
was originally written in the 1987 amendments to the act, the 
Federal Capitalization Grants, the seed money, would stop.
    Mr. Baird. I have got just a few seconds. I appreciate 
that. Let me just ask one final question related to this. It 
sounds to me then like there are more people seeking the monies 
than can have them. It seems to me that the cut, and maybe I 
can put this in a different way, is actually going to shift the 
costs onto the communities.
    Earlier, you mentioned that you wanted to talk about full 
cost pricing. Does that mean that it is the Administration's 
intent, at the same time that it is cutting funding for the 
State Revolving Loan Fund, to encourage local communities to 
raise the sewer and water rates on their subscribers? If so, 
what economic impact might that have on our local communities, 
particularly our small communities that are challenged by this 
cost?
    Mr. Grumbles. Well, out intent is to continue to be a full 
partner, a Federal partner, in the Clean Water SRF and to work 
with communities when they get loans under the SRF and with the 
States who administer them.
    What our intent is, Congressman, we want to make sure 
people understand the value of water. It is a local decision. 
It is for the local elected officials to make that decision.
    Mr. Baird. Well, I know I am out of time. But I am not so 
sure all the communities see it as a local decision. I am 
pleased that we have the Clean Water Act and that we require 
certain standards of cleanliness. But many of these local 
communities feel it is a Federal mandate to meet those 
standards without any accompanying funding.
    So, yes, maybe it is a local decision, but the costs of not 
complying, you do not get to operate your water sewer system. 
So it is not exactly a local system.
    Mr. Grumbles. Well, certainly, as we make regulatory 
decisions from the national level, we need to keep in mind and 
to account that it is not only sustainable infrastructure, but 
affordable infrastructure that we want to pursue.
    So there is a balance between full cost pricing and 
recognizing the inequities in any particular local situation, 
using the wide array of not just supply side economics, but 
demand to help encourage water conservation and funding through 
various Federal and non-Federal sources.
    Mr. Baird. I thank the gentleman. I just would close by 
saying, if I were a local community faced with installing a new 
water or sewer system, I would not be heartened by this budget 
or that response. Thank you, Mr. Chairman.
    Mr. Duncan. All right, thank you, Mr. Baird.
    Mrs. Kelly?
    Ms. Kelly. Thank you; Mr. Grumbles, I would like to go back 
to talk about the Clean Water State Revolving Fund. As you 
know, the Chairman of this Committee held hearings on this. I 
had a bill that would provide $25 billion. He had a bill which 
we passed on the Floor of the House and it went over to the 
Senate last year for $20 billion.
    I would like to know how the Administration arrives at the 
idea that a Clean Water State Revolving Fund should revolve 
over time at a level of $3.4 billion a year?
    You have been in my district. You know that we have aged 
infrastructure. Dr. Spinrad is here talking about the Hudson 
River and the need for what we do there. We have terrible 
problems with the aged infrastructure and combined sewer 
overflows and things like that.
    If this money is cramped down to the point where there just 
simply are not sufficient monies available, every State in this 
Union is going to be fighting for it. If you have been into a 
restroom here on the Capitol recently, there is a big red sign 
saying, ``Do not drink the water'' in the restroom. Washington 
has its water issues.
    I would like to know how the Administration arrived at this 
seemingly paltry amount of $3.4 billion. I do not mean to put 
you on the spot. You can give me the figures later, if you do 
not have them with you.
    Are you including the fact, and I applaud the idea that you 
have got the flexibility built in so that the States can 
transfer the funds, so they can maximize the flexibility 
between the Drinking Water State Revolving Fund and the Clean 
Water State Revolving Fund? Can you give me some help here, 
because I do not quite understand what happened.
    Mr. Grumbles. Sure, I would mention a couple of things, as 
Congresswoman Johnson asked the question, too, about where did 
we start and on what basis.
    We did this comprehensive report, the Gap Analysis, that 
laid out some pretty stark numbers, some very large costs, the 
gap between projected needs and projected spending for clean 
water infrastructure over a 20 year period.
    We looked at the $21 billion gap, based on various 
assumptions. Then from there, what we looked at, even though 
the act, the authorization for the SRF has expired. So what 
strategy would we have for continued long-term investment at 
the Federal level, that would also eventually reach the 
original intend of the SRFs, which was that these were meant to 
be State Revolving Funds that could be self-sustaining, based 
on the pay back of loans and leveraging and other proceeds 
coming in, without having Federal subsidy up front?
    When we did the numbers on that, we made various 
assumptions, which I would be happy to share with you in more 
detail.
    Ms. Kelly. If you would, sir, I would appreciate it.
    Mr. Grumbles. We recognize that an investment of $6.8 
billion over the next several years, 2004 through 2011, would 
over time allow for the funds to revolve on their own. We just 
estimated that it will be around $3.4 billion.
    I am glad you mentioned the transfer of funds, the 
flexibility. That is something that was in the legislation, the 
Safe Drinking Water Act Amendments. We continue to request that 
that authority for flexibility among the drinking water and 
clean water funds be continued as a legislative item.
    Ms. Kelly. I thank you very much. I would hope that you 
would supply, if you do not mind, some facts and figures on 
that.
    Certainly, as you said, our water needs to be clean, safe, 
and secure, but clean is the first of those. We have been 
struggling very hard to meet Federal mandates in my State. I 
represent both the Hudson and the Delaware Rivers. The area of 
the Delaware where I represent is not particularly polluted, 
but with the Hudson, we are downstream from Ft. Howard.
    We have Federal mandates that we are trying to meet. We 
need the money to get to that position, and I think the other 
side was mentioning the same thing. I hope you will work with 
us to get us to a point where we, too, can have clean water and 
not worry about combined sewer overflows when we get another 
hurricane sweeping up the coast.
    Thank you very much; I yield back the balance of my time.
    Mr. Duncan. Thank you, very much, Ms. Kelly. Certainly, we 
know of your long concern and great interest in this area. We 
will continue to work on this in the months ahead.
    Mr. Taylor or Mr. Bishop, whoever wants to go first; Mr. 
Bishop?
    Mr. Bishop. Thank you, Mr. Chairman.
    My questions are for Mr. Grumbles. I want to just focus in 
on the Long Island Sound study. Just to provide some context 
for the last several years, the Long Island Sound Study has 
received Federal support in the neighborhood of $7 million a 
year. In the current fiscal year, its total support is $6.7 
million.
    The budget requests a total of $477,000, which I think most 
people would agree is a pretty sizable cut. The cut is 
perplexing. It is particularly perplexing, Mr. Grumbles, in 
light of your comments in your testimony in which you talked 
about the priority that the EPA is giving to regional 
collaborations; its priority given to watershed-based 
approaches; priority to monitoring.
    If the Long Island Sound Study is not about those three 
things, I am not sure what it is about. It certainly is a 
regional collaboration. It certainly is a watershed-based 
approach, and it certainly has monitoring as one of its 
essential components.
    Given all of that and given the priority that you, 
yourself, assert that the EPA has given to those approaches, 
could you please help me understand why the EPA thinks a 
significant cut is the right thing to do?
    Mr. Grumbles. Congressman, first of all, I would say, there 
is not a rating or a program assessment that would indicate 
that it is not a worthwhile investment. The Long Island Sound 
program office and the efforts towards the restoration and 
protection of the Long Island Sound are important and worthy of 
support.
    The Agency, as long as I can remember, has requested about 
that level of amount, and then there has been a Congressional 
discussion. Congress has, I think, typically provided more.
    I would say that we are focused on a couple of things. We 
have a lot of planning, assistance, and regulatory 
responsibilities that we are committed to on Long Island Sound, 
whether it is the designation of the disposal sites, and we are 
working on that process, through the regional collaborations.
    I feel as though one of the lessons that we have learned, 
which is a good lesson for the whole Nation, is that in the 
Long Island Sound area, as Congresswoman Kelly points out the 
needs for infrastructure we like to point to the importance and 
the savings that have occurred through water quality trading. 
We estimate $200 million in cost-savings to utilities in the 
Long Island Sound area by pursuing a water quality trading 
approach to permitting and the reduction of nutrients into the 
Long Island Sound.
    I just would say that we look forward to the discussion 
with Congress on the appropriate levels, in terms of these 
important regional programs. The level that we are requesting 
in this budget is very similar to previous ones. I look forward 
to working with you and others on Long Island Sound 
restoration.
    Mr. Bishop. Perhaps it is not your problem, but I would 
hope that you would agree that the bar has been raised somewhat 
this year. I think ability of Congress to be able to add 
funding for programs that it considers to be important is going 
to be less easily accomplished, given the current budget 
constraints this year than we have not had in other years.
    I guess my concern is that we have a very important 
regional resource that is important, in and of itself, just in 
terms of the environmental quality. But it is also an important 
resource with respect to the underpinning of the economic well 
being of our region, which is a tourism-based and second home 
industry-based economy.
    If we lose both the quality of the water that surrounds us 
and if we lose shoreline protection and if we lose the pristine 
nature of wetlands and so on, we have a severe economic 
problem. I would hope it would be a problem that the Agency 
would recognize is one that they have an obligation to.
    What the Agency seems to be saying, yes, it is a worthwhile 
program, but it is up to Connecticut and New York to carry it 
forward. Is that not a reasonable conclusion for me to take?
    Mr. Grumbles. I agreed with everything you said, up to the 
last point. Because we do feel that there is an important 
responsibility for the Agency, and we look forward to meeting 
it in the Long Island Sound program office in the overall 
effort in protecting and restoring Long Island Sound. There are 
some very tough budgetary choices that have to be made. On this 
one, we look forward to discussing it.
    Mr. Bishop. I guess I would say, at the risk of being 
argumentative, I recognize that you have to make tough choices. 
I did budgeting in my previous job. I know all about making 
choices from equally unattractive alternatives, and I perfected 
that as an art form.
    But I guess that if you had to make a cut from $6.7 million 
to $477,000, or maybe $6.7 million to $6.2 million or $6.5 
million, I mean, this is a cut, and I am doing the math in my 
head, of about 80 or 85 percent. That is a pretty severe cut 
that imposes an enormous burden on the States and the 
localities that have an obligation to protect Long Island 
Sound, and it is one that they are going to be hard pressed to 
pick up.
    Mr. Grumbles. We look forward to working with you and with 
Congress on the program. I know the $477,000 is what the 
Agency, under previous Administrations as well, has been 
requesting. We look forward to focusing on doing more with the 
limited resources that we have.
    That is why we point to the collaborations and the National 
Estuary Program and the Long Island Sound Program to bring more 
partners to the table to advance the ball, while we also have 
these discussions about how much should be in the budget 
request.
    Mr. Bishop. Thank you, I appreciate that. Thank you, Mr. 
Chairman.
    Mr. Duncan. Thank you very much, Mr. Bishop.
    Mr. Baker?
    Mr. Baker. Thank you, Mr. Chairman, I have several 
questions for NOAA. I have provided the Clerk with a copy of 
most of those. I will just submit them for the record for them 
to be later forwarded.
    I would just like to use my time to engage Dr. Spinrad in 
reaching an understanding about one local issue relative to the 
liquified natural gas project request in the Gulf of Mexico.
    As I understand the process to date, the Coast Guard is the 
lead permitting agency for enterprises who wish to engage in 
the construction of LNG platforms. But it has contracted out, 
in essence, to NOAA the requirement to engage in the 
environmental impact assessment.
    To date, the Agency has done its due diligence, had public 
hearings and, I believe, has actually issued a FONSI, a Finding 
of No Significant Impact. But I do not know where in the 
overall permitting process this matter now resides.
    I am concerned that it has taken awhile to reach its final 
conclusion, and wanted to make an inquiry as to any reasons for 
delay or a prognosis as to the timely resolution of the 
permittee's request.
    Dr. Spinrad. Congressman, we can certainly provide the 
specifics with respect to where the processing of that permit 
lies right now.
    I will point out simply that NOAA's responsibilities 
associated with the technical expertise provided in those 
assessments, often times, we find requires extensive get-back 
with our research community and iteration on what the potential 
impacts or potential consequences are. Environmental 
considerations tend to be slightly more complicated than some 
of the more straightforward physical issues that we have got to 
deal with.
    Mr. Baker. Oh, I fully understand, and did not expect you 
to have personal knowledge of this level of detail. My only 
concern was, I believe a FONSI was issued, and that the Agency 
has done all of its work.
    But something in the interim between the determination of 
no effect and the Coast Guard's ability to issue permits, I do 
not know if it is an inter-agency communication difficulty or 
whether there is something internally within NOAA that has 
caused them to review the matter again. I am just trying to 
find out, where are we. That really is it.
    Dr. Spinrad. Congressman, I understand your issue, and we 
will certainly work to get the solution.
    Mr. Baker. Thank you very much, I appreciate your courtesy.
    Mr. Duncan. Thank you very much, Mr. Baker.
    Mr. Taylor?
    Mr. Taylor. Thank you and I apologize for running late. My 
other committee is the Armed Services Committee. In that 
capacity, I have been fortunate enough to go visit the troops 
over in Iraq a few times.
    I have got to admit noticing an irony here, where every 
time I go to Iraq we, as a Nation, brag on the money we are 
spending on waste water treatment over there. We brag on the 
money we are spending on wetlands restoration over there. We 
denounce Saddam for his lack of funding for infrastructure.
    I come over here and get an EPA budget from the same 
Administration that is cutting money for waste water treatment 
in our country; that is spending way too little on wetlands 
restoration in our country; and apparently, a lack of money for 
infrastructure is becoming the accepted norm. Again, I note 
that with irony. I do not say it happily. I certainly wish it 
was different.
    One of the things that I would like you gentlemen to 
comment on is, I have noticed a pleasant change in the past 
five or six years with the Corps of Engineers, where at least 
down my way, and I am sure they have been doing it in other 
parts of the country, they have shown a noticeable change in 
their attitude towards wetlands creation, particularly with 
things like the dredge material that they generate.
    One of the frustrations that we have noticed is that if the 
creation of a wetlands with dredge spoil costs more than open 
ocean dumping or taking the material inland, then they have to 
come up with a local sponsor to make that happen.
    Since every single community that I know of, and I would 
imagine it is universal, is already strapped for funds for 
sewage treatment plants, for water distribution, for waste 
water collection, for police and fire, I have noticed that it 
is extremely difficult to get a community to say, building that 
marsh is more important than upgrading the sewage treatment 
plant; it is more important than sewage collection; it is more 
important than police protection.
    So having said all that, having read your statement where 
you are saying wetlands restoration is a priority, my question 
is, would you be willing to work with this Committee and other 
committees of jurisdiction to see to it that the EPA could team 
up with the Corps more often and that the EPA could become the 
cost share partner, where and when an opportunity presents 
itself to do some wetlands creation with dredge material, so 
that we do not have to ask the communities of the Chesapeake, 
the communities of the Gulf Coast or wherever?
    Again, I am getting tired of hearing, we have got a great 
opportunity; boy we would love to do it, but we do not have any 
money. If it is a goal of this Administration, and I hope it is 
to do so, then why do we not change the rules and try to do 
that? Again, I am asking your thoughts on that.
    Mr. Grumbles. I would be happy to respond. I certainly 
remember your focus on the beneficial use of dredge material 
over the years.
    Mr. Taylor. And we have had some success stories.
    Mr. Grumbles. Yes.
    Mr. Taylor. But unfortunately not as many as I would like.
    Mr. Grumbles. On November 19th, John Paul Woodley and I 
signed a Memorandum of Understanding, a Partnership Agreement, 
between our two agencies to advance watershed-based approaches, 
watershed management. It listed about seven or eight key areas. 
One of them was the beneficial use of dredge material.
    So your guidance and your suggestion is a very helpful one, 
to work with you and your colleagues on looking at that, not 
just as a challenge, but as an opportunity.
    Mr. Taylor. Can I get to the point? What if I went to the 
Chairman and said, Mr. Chairman, why do we not pull out this 
language that says it has got to be a non-Federal sponsor and 
change that to be a non-Corps sponsor?
    If the EPA can reach their goal of creating X-number of 
acres of marsh for 10 or 20 cents on the dollar, then of 
course, the other 80 cents is still coming out of the Corps' 
budget, but the Corps was going to spend that 80 cents anyway. 
The Corps was going to dispose of that material one place or 
the other anyway.
    So if you can create X-number of acres of marsh for 20 
cents on the dollar, and that would have compared to the full 
dollar it would have cost you to create that marsh yourselves, 
would you be agreeable to that? Would you be agreeable to that 
change in either the law or the code?
    Mr. Grumbles. Well, I can tell you that in terms of a 
statutory change, I am not authorized to say whether we would 
be supportive or not. But I am authorized to say that we would 
be very interested in talking with you about that.
    I can tell you that under several EPA programs, including 
the Estuary Restoration Act that this Committee passed, the 
agencies do work together towards habitat restoration, where 
they share funds and resources amongst themselves. It is not 
just a Federal versus non-Federal prism to look through things.
    We also have various wetlands programs, and USDA and 
Interior really bring some resources to the table on that 
front.
    So the bottom line, Congressman, is that I would look 
forward to talking with you more and learning more about your 
suggestion about a proposed legislative change. But at this 
point, I would just simply say, we would look forward to the 
opportunity to talk to you about it and learn more about your 
specific change.
    Mr. Taylor. Okay, thank you, that is fair.
    Thank you, Mr. Chairman.
    Mr. Duncan. Well, thank you, Mr. Taylor.
    I will say that just before you mentioned your feelings 
about this spending on the infrastructure in Iraq, I had 
mentioned to staff, to Mrs. Bodine, that I participated in a 
hearing last week in which the head of the GAO discussed over 
$9 billion that the Defense Department has lost or cannot 
account for over there. He says he has zero doubt that that 
money was spent.
    Perhaps the Armed Services Committee should look into that. 
To think of losing $9 billion, just disappearing, and to think 
how much good that could have done right here with our 
infrastructure in this country, it is just mind boggling.
    I know that Charlie Cook, respected political analyst, said 
one time that nobody can comprehend a figure over $1 billion. 
So I know it is hard to comprehend $9 billion, but that is 
still a lot of money.
    At any rate, I am pleased though that Mr. Grumbles 
mentioned our estuary legislation. We have mentioned our 
brownfields legislation and our Great Lakes Legacy Act. All 
three were passed out of this Subcommittee. So I am glad that 
some of these things are coming up and are doing some good.
    Mr. Boustany?
    Mr. Boustany. I have a question for Dr. Spinrad. The 
subcommittee recently learned that NOAA has created a data base 
to help first responders get information about chemical 
releases. I thought this fell under Mr. Dunne's jurisdiction 
and responsibilities. So did NOAA coordinate these efforts with 
the EPA and with FEMA, or is this duplication?
    Dr. Spinrad. The database, in fact, is part of a large 
package of programs that we developed under the name of CAMEO, 
which has been developed in close coordination with FEMA, with 
EPA, with the Coast Guard, as well as with the private sector.
    I would point out that it is, in fact, the system of choice 
among most of the emergency responders around the country, 
simply because of its ease of use as a database allows 
emergency responders to quickly and easily access any number of 
thousands of chemicals that go under a variety of commercial 
names or common names, as well as easily at their fingertips to 
be able to access the remediative measures associated with 
those; and then, in addition, easily couple that information, 
concentrations, types of materials into forecast products, 
models. So it has been done in a very, very close collaboration 
with the full suite of players that I have identified.
    Mr. Boustany. Very good, and for Mr. Grumbles, could you 
elaborate on the security needs that remain unmet with regard 
to our water and waste water facilities? I know that is a 
general and broad question.
    Mr. Grumbles. Well, I appreciate the question though, 
because water security is an increasing challenge that local 
government and States face.
    EPA is requesting $44 million in the President's budget. 
This is a new program called Water Sentinel to help meet the 
drinking water security needs of the country by establishing a 
new program that would include a handful of cities where there 
would be monitoring in the distribution systems for warfare 
agents, or biological, chemical, radiological agents.
    It is a scientific investment that also helps lead to 
greater security. On the waste water front, I hear from 
utilities, whether it is hardening their facilities or 
developing vulnerability assessments, that is a need. So we 
want to work with them and provide training and tools, and also 
make sure of available resources for that.
    That is a growing concern which we need to keep in mind, 
any time there is a proposal for a new regulatory mandate, 
because the needs and the challenges are growing for utilities.
    Mr. Boustany. Certainly, I would think that with the 
concerns about infrastructure needs that are currently unmet, 
and this is just an added burden, which is going to be ongoing 
for the future.
    Mr. Grumbles. We hope that it becomes an institutionalized 
sense, a way of thinking, recognizing it is an added burden, 
but also it is beneficial. One of the lessons we have learned 
is, it is beneficial to think not just about meeting the water 
quality requirements, but also to think about water security 
and to institutionalize that in your daily practice.
    Mr. Boustany. I thank you for your answers. Mr. Chairman, 
that is all I have.
    Mr. Duncan. Thank you very much.
    Ms. Schwartz?
    Ms. Schwartz. Thank you very much, Mr. Chairman. I 
appreciate the opportunity to ask a question.
    I wanted to ask this question, and I assume Mr. Grumbles 
would answer this question. It has to do with the oil spill in 
the Delaware River that occurred just several months ago. The 
Coast Guard Subcommittee had a field hearing in Philadelphia 
that I was able to participate in.
    There were many issues obviously about different 
jurisdictions, different people involved in cleaning up the oil 
spill. The Coast Guard and the Army Corps of Engineers have all 
been very much involved.
    But one of the issues that came up from the State 
environmental agencies, both New Jersey and Pennsylvania, was 
the fact that one, we have to make sure that we complete the 
cleanup and particularly the environmental affects on wildlife 
and on the river itself, after the initial cleanup is done.
    In particular, there might be some concern as the weather 
changes, that additional cleanup would be necessary. There was 
some concern on both sides of the river that we do the cleanup, 
but we really do not do restoration.
    I really wanted to know from you, who at the EPA will be 
monitoring, if anyone, to make sure that the long-term effects 
on the environment, on the wildlife, on the river itself are, 
in fact, monitored as oversight from the EPA, and that the 
resources are available, of course, and not left to the local 
communities?
    The second part of my question would be, what else do we 
need to do to protect that waterfront in the future from what 
we now understand is actually not an unlikely risk of a large 
tanker running into some debris in the river?
    It could happen again, and there was some suggestion from 
both the New Jersey and Pennsylvania Environmental Protection 
Agencies that there were things that we could do, potentially, 
to do more to both remediate what has already happened, and 
then to prevent it in the future.
    So if you could speak, I guess, to briefly where we are on 
that. It was a pretty significant oil spill, obviously, and we 
do not want it to have long-term environmental consequences to 
the river or either State.
    Mr. Grumbles. Tom Dunne, really, within his Office of Solid 
Waste and Emergency Response, focuses on oil spill response.
    Mr. Dunne. Thank you, Congresswoman, for the question. As 
you properly point out, the Coast Guard is the lead Federal 
agency. It is a long-established relationship, in terms of what 
they lead on and they certainly have jurisdiction in this case.
    We were only there in a support role to them. We work very 
closely together on a day-to-day basis; and on spills, we 
augment each other's resources.
    I do not know the particulars of the facts in this, but I 
will find this out. There is a responsible party. Whoever that 
responsible party is, the firm that was navigating that 
particular ship or the owner of the ship; I do not know what 
the circumstances are. But they are responsible for all of the 
cleanup cost.
    Ms. Schwartz. To a certain cap; we have gone well over that 
liability cap, and that was another question I was going to get 
if we had time, which is whether you would consider 
administratively increasing the cap. Because the owners of 
vessel actually have said that they would pay, and they have 
been paying out.
    But they have more recently said that they do not want to 
pay beyond the cap, and they expect that money to be reimbursed 
to them from the trust fund. So we are well beyond what the 
liability cap is for the vessel, the owners.
    Mr. Dunne. But the States, I believe, along with the Coast 
Guard, could pursue further costs; whether or not they do it 
through a court action or not, I do not know. It is premature 
for me to say. It is not EPA's responsibility where the Corps 
has got the lead. But we will ask the Corps of Engineers for 
more details and provide you with the answer.
    Ms. Schwartz. I would just appreciate, certainly just by 
way of follow-up or through the Chairman, whether it is 
appropriate to provide me with some information. Because again, 
I think the Army Corps and the Coast Guard have been very 
responsive. I do not want to suggest in anyway that they have 
not been.
    But certainly, you are the ones who really have the 
expertise and help from the oversight function to make sure 
that the environmental consequences of that spill, long term in 
particular, are not forgotten three months from now when the 
Army Corps of Engineers or the Coast Guard says, everything 
seems fine when, in fact, there may be some more long-term 
consequences or remediation is not complete.
    So I would be interested in your looking into that and 
getting back to me, either directly or through the Chairman; 
thank you.
    Mr. Dunne. We will do that, thank you.
    [The information received follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Duncan. Dr. Spinrad, did you want to add something to 
that?
    Dr. Spinrad. Yes, Mr. Chairman, if I can very briefly. With 
respect to the second half of your question, Congresswoman, 
regarding the remediation activities, NOAA, by cooperative 
decision among the agencies, has a Federal lead administrative 
trustee responsibility associated with the natural resource 
damage assessment. The trend nowadays is to try to do that 
through cooperative damage assessment.
    So over the next one to two years, NOAA will be developing 
that assessment which will, of course, try to identify the 
associated costs for the longer term impacts on the 
environment; thank you.
    Mr. Duncan. Thank you very much.
    Mr. Ehlers, is there anything else you want to get into?
    [No response.]
    Mr. Duncan. Dr. Spinrad, last year, the International 
Maritime Organization approved new ballast water discharge 
standards to prevent the introduction of invasive species.
    We have held a couple of hearings on the standards, but the 
new technology is not there even to implement the IMP 
standards. Is that accurate, and what is NOAA's position in 
that regard?
    Dr. Spinrad. I believe it is safe to say that NOAA's 
position is that an emphasis should be put on the monitoring 
and detection aspects and the assessment.
    Therefore, trying to identify the earliest incursions, if 
you will, of some of these invasive species, for many of these, 
we recognize that very, very low concentrations of the 
organisms can precipitate a significant impact. Consequently, 
our view is that we need to be extremely cautious with respect 
to identification of standards of concentration, if you will, 
of some of these species.
    Mr. Duncan. Well, maybe I missed you saying this. But is 
there a move in NOAA to require even stricter standards for 
which there is no technology available?
    Dr. Spinrad. There is not a specific move for those kinds 
of standards for which there is no technology available.
    Mr. Duncan. Is this sort of a wish list, then?
    Dr. Spinrad. I think it is fair to say that we are trying 
to identify the full spectrum of species for which we need to 
be accountable for; concentrations which could result in an 
invasive event.
    Mr. Duncan. Administrator Dunne, GAO says there are 300,000 
or more brownfield sites around the country or perhaps even 
more. I do not know; maybe you have a more accurate figure on 
that. But all the cities, large and small, have brownfield 
sites all over the country.
    What I am wondering about, I am told that out of a $210 
million program, that your agency or your department is 
planning to spend only about 14 percent of that money or $30 
million on various FTEs and contracts in regard to brownfields.
    Is that accurate, or what do you have to say about that? 
What does the Administration intend to do about this need to 
clean up all these gas stations and various other brownfields 
locations that we have around the country?
    Mr. Dunne. Well, as I think the budget justification says, 
we will do 1,000 assessments that will lead to a certain number 
of cleanups. Our actual State amount from last year is $49.7 
million.
    The $30 million, I assume that you are talking about salary 
expense and overhead, et cetera. Let me point out that since 
the Superfund Law was enacted through this Committee action, we 
now are in the position where we have an awful lot of open 
grants. These are grants that have to be closed out 
statutorily.
    Mr. Duncan. Let me correct one thing. What I am talking 
about is, the bigger part of the brownfield budget, I am told, 
that money is going for administration and management-type 
expenses; and not very much of it really is going for the 
actual cleanup.
    Mr. Dunne. I do not think that is true, Congressman.
    Mr. Duncan. You do not think that is true?
    Mr. Dunne. If you go take a look at the figures that we 
have got, the vast majority of the money is going for cleanups; 
and then for monies that go to State and Tribal organizations, 
to promote cleanups and help the local communities.
    Our overhead rate, as I have looked across the EPA, in 
other programs, within the last number of weeks, is pretty much 
in tune. Fourteen to fifteen percent is our salary and 
administrative costs. Then we had certain costs that are 
associated with normal operations of programs.
    So I believe that the bulk of the money is going for 
cleanups, and the majority of that money is going to State and 
local governments for the grants.
    Mr. Duncan. Well, you know, moving from brownfields to the 
Superfund, for years, that has been a real criticism of the 
Superfund Program; that so much of the money, and in fact, some 
people still say that it is as high as 50 percent of the money, 
is being spent on administration and paperwork instead of 
actual cleanup there.
    In fact, I remember several years ago, I saw an article 
that said 85 percent of the money was going toward 
administration and paperwork of course, that was quite a few 
years ago. Where do we stand there?
    Mr. Dunne. It depends upon what you call overhead. Let me 
cite some figures for you. Right now, at EPA, we have 678 
construction projects, going at 420 individual sites. A lot of 
those are big, as I mentioned before in my testimony. We 
started 27 new construction projects last year.
    Mr. Duncan. You started how many?
    Mr. Dunne. We started 27 new ones last year.
    Mr. Duncan. That was 27 new ones, and you had how many 
ongoing?
    Mr. Dunne. Six hundred seventy-eight.
    Mr. Duncan. Six hundred and seventy-eight ongoing.
    Mr. Dunne. So it is an enormous construction management 
program.
    Mr. Duncan. How many will you complete in a typical year?
    Mr. Dunne. Last year we completed 40. This year, we think 
we can complete 40. We are projecting for the 2006 budget, 
which we are testifying on, another 40.
    Mr. Duncan. All right.
    Mr. Dunne. So I do not think our costs are really out of 
the question. It is a very complicated act that the Congress 
passed 24 years ago. Because of the liability issues involved, 
it takes an awful lot of work between the enforcement people; 
not just the EPA people, but the Justice Department people and 
ourselves, and then getting construction off the ground.
    So an awful lot of investigation and feasibility study has 
got to be done. The record for 20 some years reflects the 
number of court actions that have taken place. People were 
taking EPA to court because they did not think it was too fair.
    We are somewhat over that hump, I think, in terms of an 
awful lot of court actions. But the fact is, it was 
complicated. We have now developed this enormous workload, and 
we see that workload continuing for the next number of years. I 
believe that our costs are in line with the work that is being 
done.
    Mr. Duncan. Well, when you say that it is an awfully 
complicated act that the Congress passed, do you think the act 
is too complicated? Does it cause you problems in that regard?
    Mr. Dunne. It has been on the books for 24 years. I would 
hate to see that change, because it would screw up everything 
if they did.
    Mr. Duncan. It would make even worse.
    Mr. Dunne. It would it even more complicated.
    [Laughter.]
    Mr. Duncan. Well, I think that may be true. I remember we 
passed the Tax Simplification Act of, I think in 1998, and it 
became the longest, most complicated tax law ever written. So 
that may be true.
    Mr. Grumbles, you left this Subcommittee just before I came 
on as Chairman, and you may be glad about that. But in the four 
years now that you have been there, where are we getting the 
most bang for the buck? Of all the problems and programs and so 
forth that you deal with, what has been your most pleasant 
surprise and what has been your biggest problem?
    Mr. Grumbles. I had not prepared for this question, Mr. 
Chairman, but I welcome and I appreciate that very much.
    I would say that one of the most important areas of success 
or developing areas is watershed approaches through 
collaborations; the National Estuaries Program and some of the 
regional offices where EPA is not necessarily the regulator, 
but they are the facilitator, in bringing together State and 
local entities. Examples include, from my perspective, the 
Chesapeake Bay Program.
    I think beyond the collaborations, an area the Agency 
thinks is very important and significant, is through the core 
programs under the Clean Water Act that relate to the pre-
treatment.
    The Pretreatment Program is one that, I think, is a real 
fundamental backbone of the act. The more we can continue to 
implement it in a way that recognizes that pollution prevention 
helps minimize costs or the risks of upset at the sewage 
treatment plant, it can help reduce the costs to the utilities 
and also reduce the risk of non-compliance in violating the 
Clean Water Act.
    I think that it continues to be a challenge for the Agency; 
how to deal with wet weather flows and deal with CSOs and SSOs 
or storm water program, whether it is a municipal storm water 
program or the industrial storm water. It is a different 
situation when it is not a routine discharge that is associated 
with some industrial activity, coming out of a manufacturing 
pipe. It is related to the weather and rainfall patterns.
    Mr. Duncan. That has been the biggest problem. I will tell 
you, the Knoxville Utilities Board has just started a $300 
million-plus 10 year program to deal with the SSOs and the CSOs 
and all the problems associated with the storm water. But I 
guess another way I could have put that is, other than your 
salary, what is the best money that the EPA spends?
    [Laughter.]
    Mr. Grumbles. I would say that for us, water quality 
trading and watershed-based permitting are two of the areas 
that can really lead to more effective, efficient, and 
equitable approaches towards impaired watersheds. So we want to 
pursue those. Those are important areas for investment and 
collaboration with the many stakeholders to pursue those areas.
    I was really excited to hear that you are working on the 
Good Samaritan legislation, too, because it is looking at ways 
to restore impaired watersheds by interjecting some common 
sense and incentives for volunteer remediation.
    Mr. Duncan. Well, I like that. In fact, we passed the first 
Good Samaritan Law for the skies when I chaired the Aviation 
Subcommittee, and I am hopeful that we can do some work in that 
area.
    I will tell you this, I tell my staff that I like to hold 
hearings. I would like more hearings, because I learn something 
at every hearing. You all have been an outstanding panel and 
have contributed a great deal, in my opinion. I appreciate it 
very much that you take time out from your busy schedules to be 
here with us today, or that you took time out. So that will 
conclude this hearing.
    [Whereupon, at 3:30 p.m., the Subcommittee was adjourned.]





    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]










</pre></body></html>
